Elkins v. Shoop, 2020 U.S. App. LEXIS 38043

Page 1 of 4

Egraadnierhs Qkioi3iepbdni^g|6a6(^r#<p]k)bs.
Lexis® |

_________
Goto v

^ lot 1 | Results list y

© Elkins v. Shoop, 2020 U.S. App. LEXIS 38043
Copy Citation
United States Court of Appeals for the Sixth Circuit
December 4, 2020, Filed
No. 20-3933

Reporter
2020 U.S. App. LEXIS 38043 *
SHEAN ELKINS, Petitioner-Appellant, v. TIM SHOOP, Warden, RespondentAppellee.
Prior History: Elkins v. Warden. Chillicothe Corr. Inst.. 2020 U.S. Dist. LEXIS
144653 (S.D. Ohio. Aua. 12, 2020)

Core Terms
habeas corpus petition, direct appeal, jurists, statute of limitations, district
court, certificate, time-barred, Appeals, collateral review, out-of-time, oneyear, delayed, toll, denial of constitutional rights, extraordinary circumstances,
expiration of time, equitable tolling, in forma pauperis, right to file, timely
filing, state court, circumstances, convicted, innocence, diligent, corpus,
prison, rights, cases
Counsel: [*1] Shean Elkins, Petitioner - Appellant, Pro se, Chillicothe, OH.
Judges: Before: SILER, Circuit Judge.

T

Opinion by: SILER

https://doc-advance.lexis.com/document/7pdmfkNl 512960&crid==Obb98808-5540-40fb-9... 12/11/2020

Elkins v. Shoop, 2020 U.S. App. LEXIS 38043

Document:

Page 2 of 4

Pn^020 Ijjbij. App. L.

ORDER

Goto ^

Shean Elkins, an Ohio prisoner proceeding pro se, appeals a district court
judgment disrdfesJrfi^l4is!
i^rit of habeas corpus filed pursuant to
28 U.S.C. 5 2254. The court construes the notice of appeal as a request for a
certificate of appealability. See 28 U.S.C. 5 2253(c): Fed. R. Add. P. 22(b)(2).
Elkins requests leave to proceed in forma pauperis.
In 2013, Elkins pleaded guilty to four counts of rape. He was sentenced to
serve a total of twenty-two years in prison and found to be a sexual predator.
The Ohio Court of Appeals affirmed the trial court's judgment. State v. 5.E..
No. 13AP-325. 2014-Qhio-413. 2014 WL 504772 (Ohio Ct. Add. Feb. 6. 2014T
Elkins did not appeal to the Ohio Supreme Court.
Elkins stated that he filed a motion for a delayed direct appeal on April 9,
2019. The Ohio Court of Appeals denied the motion on February 18, 2020.
Elkins stated that the Ohio Supreme Court declined to accept jurisdiction of his
appeal on May 12, 2020.
Elkins mailed this habeas corpus petition from prison on June 1, 2020, and it is
considered filed on that date. See Houston v. Lack. 487 U.S. 266. 276. 108 S.
Ct. 2379, 101 L. Ed. 2d 245 (1988): Cook v. Steaall. 295 F.3d 517. 521 (6th
Cir. 2002). Elkins's petition alleged three grounds for relief. On the
recommendation of a magistrate judge and over Elkins's objections, [*2] the
district court dismissed Elkins's habeas corpus petition as time-barred and
denied a certificate of appealability.
A certificate of appealability may issue only if a petitioner makes "a substantial
showing of the denial of a constitutional right." 28 U.S.C. 5 2253(c)(2). When
a habeas corpus petition is denied on procedural grounds, the petitioner must
show "that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural
ruling." Slack v. McDaniel. 529 U.S. 473. 484. 120 S. Ct. 1595. 146 L. Ed. 2d
542 (20001.
Reasonable jurists would not debate the district court's determination that
Elkins's habeas corpus petition was time-barred. A federal habeas corpus

t

petition is subject to a one-year statute of limitations that begins to run from
the latest of four possible circumstances. 28 U.S.C. 5 2244(dHU(AMD’). Here,
the statute of limitations began to run from "the date on which the [state
court] judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review." 28 U.S.C. S 2244(ti)(l)UK).

https://doc-advance.lexis.com/document/?pdmfid=1512960&crid=;0bb98808-5540-40fb-9... 12/11/2020

Page 3 of 4

Elkins v. Shoop, 2020 U.S. App. LEXIS 38043

Document:

apP'V in thiS case' See 28 U-S^ -22^ •

------------ ----- —(d4^4.4CB4-^Dl^ilftaJtnlit-atlQns.--pei:iQdLLc„.tQlJ.ed-j/\th.iJa—a-.pmper.l^/--fiJed--_-.-----------------

application [*3] for State post-conviction or other collateral review with
respect to thpi^^gejoJt judgment or claim is pending." 28 U.S.C. S 2244(d1
(21.

------------------ '

The Ohio Cour^oq/fcffpjecjlsR^itffkffiitPl^nion in Elkins's direct appeal on
February 6, 2014. Elkins then had forty-five days to appeal to the Ohio
Supreme Court. See Ohio Sup. Ct. Prac. R. 7.01(A1(11(a1(i1. Because he did
not do so, his convictions became final on Monday, March 24, 2014. See Fed.
R. Civ. P. 6(aH11(C1. Thus, absent tolling, Elkins had one year from March 24,
2014, to file his 5 2254 habeas corpus petition. Elkins's habeas corpus petition,
filed on June 1, 2020, was not filed within that one-year period. Although
Elkins filed a motion for a delayed direct appeal, that motion did not toll the
statute of limitations because it was filed after the statute of limitations had
expired. See Vroman v. Briaano. 346 F.3d 598. 602 f6th Cir. 20031.
The district court rejected Elkins's contention that, under the reasoning of
Jimenez v. Ouarterman. 555 U.S. 113, 121, 129 S. Ct. 681, 172 L. Ed. 2d 475
120091. the statute of limitations was restarted during the pendency of his
motion for a delayed direct appeal. Jimenez held that "where a state court
grants a criminal defendant the right to file an out-of-time direct appeal during
state collateral review, but before the defendant has first sought federal
habeas relief, his judgment is not yet 'final' for purposes of 5 2244(d1fTHAI."
555 U.S. at 121. [*4] In such cases, the judgment of conviction does not
become final until "the conclusion of the out-of-time direct appeal, or the
expiration of the time for seeking review of that appeal." Id. Because Elkins
was not granted the right to file an out-of-time direct appeal during collateral
review proceedings, reasonable jurists would not debate the district court's
determination that Jimenez does not apply to Elkins's case. Thus, Elkins's
habeas corpus petition is time-barred under § 2244(dK11(A1.
The one-year statute of limitations set forth in 8 2244(d1 "is subject to
equitable tolling in appropriate cases." Holland v. Florida. 560 U.S. 631, 645,
130 5. Ct. 2549. 177 L. Ed. 2d 130 (20101. "[A] 'petitioner' is 'entitled to
equitable tolling' only if he shows '(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way' and
prevented timely filing." Id. at 649 (quoting Pace v. DiGualielmo. 544 U.S.
408. 418. 125 S. Ct. 1807. 161 L. Ed. 2d 669 (200511. Reasonable jurists

A\

would not disagree with the district court's determination that Elkins failed to
show a diligent pursuit of his rights and an extraordinary circumstance
preventing the timely filing of his habeas corpus petition.
In addition, reasonable jurists would agree that Elkins did not make a credible
showing of actual innocence that would allow his habeas corpus petition [*5]
to proceed despite its untimeliness. See Schlup v. Delo. 513 U.S. 298. 327.

https://doc-advance.lexis.com/document/?pdmfid=1512960&crid=0bb98808-5540-40fb-9... 12/11/2020

Elkins v. Shoop, 2020 U.S. App. LEXIS 38043

Page 4 of 4

Document:
fl995)' Elkins Presented no new, reliable
------------------- ev-idence-den^^fti:attag3ws-inn0Ge»Ge-of-tbe-Gr4mes40F-wtiiGb-he-A«'es---------convicted.
Reasonable j jrf§Ps*wouid

not debate "whether the district court was correct in

its procedural ruling" dismissing Elkins's habeas corpus petition as time-barred.
See Slack. 529dJ.-6mpt 4:843 gAotortiifroiy. the application for a certificate of
appealability is DENIED, and the motions to proceed in forma pauperis are
DENIED as moot.

m

Privacy
Policy

Terms &
Conditions

Copyright © 2020
LexisNexis.

....

i
t'-

t

https://doc-advance.lexis.com/document/7pdmficHl 512960&crid-Obb98808-5540-40fb-9... 12/11/2020

Case: 2:20-cv-02934-JLG-KAJ Doc #: 9 Filed: 08/12/20 Page: 1 of 4 PAGEID #: 95

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
SHEAN ELKINS,
CASE NO. 2:20-CV-2934
JUDGE JAMES L. GRAHAM
Magistrate Judge Kimberly A. Jolson

Petitioner,
v.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

OPINION AND ORDER
On August 3, 2020, the Magistrate Judge issued a Report and Recommendation pursuant
to Rule 4 of the Rules Governing Section 2254 Cases recommending that this action be
dismissed as barred by the one-year statute of limitations under 28 U.S.C. § 2244(d). (Doc. 5.)
Petitioner has filed an Objection to the Magistrate Judge’s Report and Recommendation. (Doc.
8.) Pursuant to 28 U.S.C. § 636(b), this Court has conducted a de novo review. For the reasons
that follow, Petitioner’s Objection (Doc. 8) is OVERRULED.
Recommendation (Doc. 5) is ADOPTED and AFFIRMED.

The Report and

This action is hereby

DISMISSED.
The Court DECLINES to issue a certificate of appealability.
Petitioner challenges his March 20, 2013, convictions pursuant to his guilty plea in the
Franklin County Court of Common Pleas on four counts of rape. The trial court imposed the
jointly recommended sentence of 22 years’ incarceration and adjudicated Petitioner as a sexual
predator. See State v. S.E., 10th Dist. No. 13AP-325, 2014 WL 504772 (Ohio Ct. App. Feb. 6,
2014).

On February 6, 2014, the appellate court affirmed the trial court’s judgment.

Id.

Petitioner did not pursue an appeal to the Ohio Supreme Court. On April 9, 2019, he filed a

Case: 2:20-cv-02934-JLG-KAJ Doc #: 9 Filed: 08/12/20 Page: 2 of 4 PAGEID #: 96

motion for a delayed appeal. On February 18, 2020, the appellate court denied the motion for a
delayed appeal as unavailable, because Petitioner had already perfected his direct appeal as of
right. {Memorandum Decision, Doc. 8). Petitioner states that, on May 12, 2020, the Ohio
Supreme Court declined to accept jurisdiction of the appeal.

Referring to Jimenez v.

Quarterman, 555 U.S. 113 (2009), Petitioner now argues that the one-year statute of limitations
did not begin to run until the following day. {Objection, Doc. 8, PAGEID #91.) He objects to
the recommendation of dismissal of this action as time-barred.
The Supreme Court’s decision in Jimenez does not assist the Petitioner. In Jimenez, the
Supreme Court held:
[Wjhere a state court grants a criminal defendant the right to file an out-of-time
direct appeal during state collateral review, but before the defendant has first
sought federal habeas relief, his judgment is not yet “final” for purposes of
2244(d)(1)(A). In such a case, “the date on which the judgment became final by
the conclusion of direct review or the expiration of the time for seeking such
review” must reflect the conclusion of the out-of-time direct appeal, or the
expiration of the time for seeking review of that appeal.
Id. at 121. These are not the circumstances here. Petitioner perfected a timely appeal. The state
appellate court rejected his 2019 motion for a delayed appeal, filed long after the statute of
limitations had already expired, as improper, as Petitioner has already had his first appeal as of
right. As discussed by the Magistrate Judge, the statute of limitations expired on March 24,
2015. Petitioner waited more than five years and two months, until June 1, 2020, to execute this
habeas corpus petition. Plainly, it is untimely. Moreover, the record does not indicate that
Petitioner acted diligently in pursuing relief or that some extraordinary circumstance prevented
his timely filing so as to warrant application of equitable tolling of the statute of limitations. See
Holland v. Florida, 560 U.S. 631, 649 (2010).

2

Case: 2:20-cv-02934-JLG-KAJ Doc #: 9 Filed: 08/12/20 Page: 3 of 4 PAGEID #: 97

For the foregoing reasons and for the reasons detailed in the Magistrate Judge’s Report
and Recommendation, Petitioner’s Objection (Doc. 8) is OVERRULED.
Recommendation (Doc. 5) is ADOPTED and AFFIRMED.

The Report and

This action is hereby

DISMISSED.
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases in the United States
District Courts, the Court now considers whether to issue a certificate of appealability. “In
contrast to an ordinary civil litigant, a state prisoner who seeks a writ of habeas corpus in federal
court holds no automatic right to appeal from an adverse decision by a district court.” Jordan v.
Fisher,

-U.S.

-, 135 S.Ct. 2647, 2650 (2015); 28 U.S.C. § 2253(c)(1) (requiring a

habeas petitioner to obtain a certificate of appealability in order to appeal).
When a claim has been denied on the merits, a certificate of appealability may issue only
if the petitioner “has made a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). To make a substantial showing of the denial of a constitutional right, a
petitioner must show “that reasonable jurists could debate whether (or, for that matter, agree that)
the petition should have been resolved in a different manner or that the issues presented were
‘adequate to deserve encouragement to proceed further.’” Slack v. McDaniel, 529 U.S. 473, 484
(2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893, n.4 (1983)). When a claim has been
denied on procedural grounds, a certificate of appealability may issue if the petitioner establishes
that jurists of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling. Id.
The Court is not persuaded that reasonable jurists would debate the dismissal of this
action as time-barred. The Court therefore DECLINES to issue a certificate of appealability.

3

Case: 2:20-cv-02934-JLG-KAJ Doc #: 9 Filed: 08/12/20 Page: 4 of 4 PAGEID #: 98

The Court certifies that the appeal would not be in good faith and that an application to
proceed in forma pauperis on appeal should be DENIED.
IT IS SO ORDERED.
Date: August 12, 2020

s/James L. Graham
JAMES L. GRAHAM
UNITED STATES DISTRICT JUDGE

4

Case: 2:20-cv-02934-JLG-KAJ Doc #: 10 Filed: 08/12/20 Page: 1 of 1 PAGEID #: 99
AO 450 (Rev. 11/11) Judgment in a Civil Action

United States District Court
for the
Southern District of Ohio

Shean Elkins,
Plaintiff
v.
Warden, Chillicothe
Correctional Institution,

)
)
)
)
)

2:20-CV-2934

Civil Action No.

Defendant
JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
□ the plaintiff (name)
defendant (name)

recover from the
the amount of
), which includes prejudgment
% per annum, along with costs.

dollars ($
interest at the rate of

%, plus post judgment interest at the rate of

□

the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
recover costs from the plaintiff (name)

X

other:

This case is dismissed.
This action was (check one)'.
□ tried by a jury with Judge
rendered a verdict.
O tried by Judge
was reached.
□

without a jury and the above decision

decided by Judge

Date:

presiding, and the jury has

Aug 12, 2020

on a motion for

CLERK OF COURT
Denise M. Shane
Signature of Clerk or Deputy Clerk

Case: 2:20-cv-02934-JLG-KAJ Doc #: 5 Filed: 08/03/20 Page: 1 of 5 PAGEID #: 79

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
SHEAN ELKINS,
CASE NO. 2:20-CV-2934
JUDGE JAMES L. GRAHAM
Magistrate Judge Kimberly A. Jolson

Petitioner,
v.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

REPORT AND RECOMMENDATION
Petitioner, a state prisoner, has filed a petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. This case has been referred to the Undersigned pursuant to 28 U.S.C. § 636(b) and
Columbus’ General Order 14-1 regarding assignments and references to United States Magistrate
Judges.
This matter is before the Court on its own motion under Rule 4 of the Rules Governing
Section 2254 Cases in the United States District Courts (“Rule 4”). Pursuant to Rule 4, the Court
conducts a preliminary review to determine whether “it plainly appears from the face of the petition
and any attached exhibits that the petitioner is not entitled to relief. . . .” If it does so appear, the
petition must be dismissed. Id. With this standard in mind, and for the reasons that follow, these
are the circumstances here. It is therefore RECOMMENDED that this action be DISMISSED.
I. BACKGROUND
Petitioner challenges his March 20, 2013 convictions pursuant to his guilty plea in the
Franklin County Court of Common Pleas on four counts of rape. The trial court imposed the
jointly recommended sentence of 22 years incarceration and adjudicated Petitioner as a sexual
predator. See State v. S.E., 10th Dist. No. 13AP-325, 2014 WL 504772 (Ohio Ct. App. Feb. 6,

Case: 2:20-cv-02934-JLG-KAJ Doc #: 5 Filed: 08/03/20 Page: 2 of 5 PAGEID #: 80

2014). Petitioner timely appealed, asserting as his sole assignment of error that the trial court erred
in adjudicating him as a sexual predator. On February 6, 2014, the appellate court affirmed the
trial court’s judgment. Id. Petitioner did not pursue an appeal to the Ohio Supreme Court. On
April 9,2019, he filed a motion for a delayed appeal, asserting the denial of the effective assistance
of counsel and that the prosecutor violated Brady v. Maryland, 373 U.S. 83 (1963). Petitioner
does not indicate the status of those proceedings.
On June 1, 2020, Petitioner executed this habeas corpus petition. (Doc. 1, PAGEID # 15).
He asserts that he was denied the effective assistance of counsel and that the prosecutor violated
Brady. However, the record reflects that the statute of limitations bars review of Petitioner’s
claims.
II. STATUTE OF LIMITATIONS
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), which became
effective on April 24,1996, imposes a one-year statute of limitations on the filing of habeas corpus
petitions. 28 U.S.C. § 2244(d). The statute provides:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of—
(A) the date on which the judgment became final by the conclusion of direct review
or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action
in violation of the Constitution or laws of the United States is removed, if the
applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.

2

Case: 2:20-cv-02934-JLG-KAJ Doc #: 5 Filed: 08/03/20 Page: 3 of 5 PAGEID #: 81

(2) The time during which a properly filed application for State postconviction or
other collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.
Id.
A District Court is permitted, but not obligated, to sua sponte address the timeliness of a
federal habeas corpus petition, Day v. McDonough, 547 U.S. 198 (2006), and may do so when
conducting an initial review under Rule 4. See Wogenstahl v. Charlotte, No. l:17-cv-298, 2017
WL 3053645, at *2 (S.D. Ohio July 19, 2017) (citing McDonough, 547 U.S. at 198).
Applied here, Petitioner’s judgment of conviction became final under the provision of §
2244(d)(1)(A) on March 23, 2014, forty-five days after the appellate court’s February 6, 2014
dismissal of the appeal, when the time period expired to file a timely appeal with the Ohio Supreme
Court. See Montgomery v. Warden, Allen Corr. Inst., No. 2:19-cv-3077, 2019 WL 4737999, at *3
(S.D. Ohio Sept. 27, 2019) (citing Searcy v. Carter, 246 F.3d 515, 517 (6th Cir. 2001); Taher v.
Warden, No. l:12-cv-400, 2013 WL 485789, at *6 (S.D. Ohio Feb. 6, 2013)).

The statute of

limitations began to run on the following day and expired one year later, on March 24, 2015.
Petitioner waited more than five years and two months, until June 1, 2020, to execute this habeas
corpus petition. His 2019 motion for a delayed appeal did not affect the running of the statute of
limitations as he filed that motion long after the statute of limitations had already expired. “The
tolling provision [of § 2244(d)(2)] does not... ‘revive’ the limitations period (i.e., restart the clock
at zero); it can only serve to pause a clock that has not yet fully run.” Vroman v. Brigano, 346
F.3d 598, 601 (6th Cir. 2003) (citing Rashidv. Khulmann, 991 F. Supp. 254,259 (S.D.N.Y. 1998)).
Moreover, Petitioner does not allege, and the record does not reflect, any extraordinary
circumstances that would justify equitable tolling of the statute of limitations. See Holland v.
Florida, 560 U.S. 631, 649 (2010) (To obtain equitable tolling of the statute of limitations, a

3

Case: 2:20-cv-02934-JLG-KAJ Doc #: 5 Filed: 08/03/20 Page: 4 of 5 PAGEID #: 82

litigant must establish that he has been diligently pursued relief and that some extraordinary
circumstance stood in his way of timely filing) (citing Pace v. DiGuglielmo, 544 U.S. 408, 418
(2005)).
III. RECOMMENDED DISPOSITION
Therefore, it is RECOMMENDED that this action be DISMISSED.
Procedure on Objections
If any party objects to this Report and Recommendation, that party may, within fourteen
days of the date of this Report, file and serve on all parties written objections to those specific
proposed findings or recommendations to which objection is made, together with supporting
authority for the objection(s). A judge of this Court shall make a de novo determination of those
portions of the report or specified proposed findings or recommendations to which objection is
made. Upon proper objections, a judge of this Court may accept, reject, or modify, in whole or in
part, the findings or recommendations made herein, may receive further evidence or may recommit
this matter to the magistrate judge with instructions. 28 U.S.C. § 636(b)(1).
The parties are specifically advised that failure to object to the Report and
Recommendation will result in a waiver of the right to have the district judge review the Report
and Recommendation de novo, and also operates as a waiver of the right to appeal the decision of
the District Court adopting the Report and Recommendation. See Thomas v. Am, 474 U.S. 140
(1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981). The parties are further advised
that, if they intend to file an appeal of any adverse decision, they may submit arguments in any
objections filed, regarding whether a certificate of appealability should issue.
IT IS SO ORDERED.

4

Case: 2:20-cv-02934-JLG-KAJ Doc #: 5 Filed: 08/03/20 Page: 5 of 5 PAGEID #: 83

Date: August 3, 2020

/s/ Kimberly A. Jolson
KIMBERLY A. JOLSON
UNITED STATES MAGISTRATE JUDGE

5

